2311 Douglas Street
Omaha, Nebraska 68102-1214

TX
COCKLE

Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

No. 20-1174

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

KIM LIPPARD AND BARRY LIPPARD,

Petitioners,
Vv.

LARRY HOLLEMAN AND ALAN HIX,

Respondents.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICUS CURIAE
OF LAW AND RELIGION PROFESSORS IN SUPPORT OF PETITIONERS in the above entitled

case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in

New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief

contains 4634 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as

needed.

Subscribed and sworn to before me this 26th day of March, 2021.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

a, GENERAL NOTARY-State of Nebraska
i RENEE J. GOSS 9
My Comm. Exp. September 5, 2023 #

Notary Public

Oude h. lal

Affiant 40761
